Oversight Review             August 15, 2011


          Quality Control Review of
           Air Force Audit Agency's
        Special Access Program Audits

          Report No. D-2011-6-009
Additional Information and Copies
The Department of Defense, Office of the Assistant Inspector General for Audit Policy
and Oversight, prepared this report. To obtain additional copies of the final report, visit
www.dodig.mil/audit/reports or contact the Office of the Assistant Inspector General for
Audit Policy and Oversight at (703) 604-8760 or fax (703) 604-8982.

Suggestions for Reviews
To suggest or request reviews, contact the Office of the Assistant Inspector General for
Audit Policy and Oversight by phone (703) 604-8760 (DSN 664-8760), by fax
(703) 604-8982, or by mail:

                       OAIG-APO
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 833)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
AFAA                   Air Force Audit Agency
SAP                    Special Access Programs
GAGAS                  Generally Accepted Government Auditing Standards
                                 INSPECTOR GE NERAL
                                DEPARTMENT OF DEFE NSE
                                   400 ARMY NAVY DRI VE
                             ARLI NGTON, VIRGINIA 22202-4704



                                                                         AUG 15 2011

MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE AIR FORCE

SUBJECT: Quality Control Review Of Air Force Audit Agency's Special Access
         Program Audits (Report No. 0-2011-6-009)

We are providing this report for your information and use. We reviewed the Air Force
Audit Agency's (AFAA) system of quality control over Special Access Programs (SAP)
audits for the two years ended September 30, 20 I O. The generally accepted government
auditing standa rds (GAGAS) requires that an audit organization performing audits andlor
attestation engagements in accordance with GAGAS should have an appropriate internal
quality control system in place and undergo an external peer review at least once every
three years by reviewers independent of the aud it organization being reviewed. As the
organi zation that has audit policy and oversight responsibilities for audits in the DOD, we
conducted the external quality control review of the AFAA SAP audits in conjunction
with the Army Audit Agency's review of the AFAA non-SAP audits.

An audit organization's quality control policies and procedures should be appropriately
comprehensive and suitably designed to provide reasonable assurance of meeting the
objectives of quality control. We tested the AFAA SAP system of quality control for
audi ts to the extent considered appropriate.

In our opinion, the system of quality control for the audit function of AFAA SAP in
effect for the period ended September 30, 2010 was designed in accordance with quality
standards established by GAGAS . Further, the internal quality control system was
operating effectively to provide reasonable assurance that SAP audit personnel were
following established policies, procedures, and applicable auditing standards.
Accordingly, we are issuing a pass opinion on your SAP audit quality contr"ol system for
the review period ended September 30, 2010.

Appendix A contains comments, observations where AFAA can improve its quality
control system. Appendi x B contains the scope and methodology of the review, and
Appendix C provides the full text of management comments in response to the draft
report. We appreciate the courtesies extended to the staff. Questions should be directed
to Ms. Carolyn R. Davis at (703-604-8877) (DSN 664-8877), Car yn.Davis@dodig.mil.



                                               ~
                                Randolph R. Stone, SES
                                Deputy Inspector General
                                  Policy and Oversi"ght
Appendix A. Comments, Observations, and
            Recommendation
We are issuing a pass opinion because we determined that the AFAA quality control
system is adequately designed and functioning as prescribed.

We identified one area of concern related to supervision. We judgmentally tested the
reports for compliance with GAGAS and AFAA audit policies in nine areas to include
independence, professional judgment, competence, audit planning, supervision, evidence,
audit documentation, reporting, and quality control.

Supervision
We identified that for one audit reviewed the working papers did not include an audit
plan showing evidence of supervisory review before the audit had started. In another
audit some working papers did not contain evidence of supervisory review. In addition,
we found that the supervisor did not sign and date all of the audit review records.

GAGAS 7.54 (2007 Revision) requires that reviews of audit work should be documented.
The nature and extent of the review of audit work may vary depending on a number of
factors, such as the size the audit organization, the significance of the work, and the
experience of the staff.

Air Force Audit Agency Instruction, 65-101, Financial Management, Installation Level
Audit dated November 19, 2010, Section 2.8 states that the auditor must prepare a written
audit program before starting any in-depth audit work. Team chiefs will review the
program for adequacy and approve the program before the auditor starts audit testing.

Air Force Audit Agency Instruction 65-103, Audit Management and Administration,
dated April 6, 2006, Section 6.2.3 states that whether accomplished electronically or
manually, the Audit Review Record must include the supervisor’s initials and date, and
the working papers must contain clear evidence of supervisory review.

Although we identified lack of documentation of supervisory review, we found support
that the supervisor was generally kept informed of the audit status through biweekly
status reports and through quarterly site visits to audit staff locations to perform audit
reviews.

Recommendation: We recommend that the AFAA Representative for Special Programs
follow Air Force Audit Agency instructions relating to audit supervision to include that
Air Force Audit Agency audit review records are reviewed, initialed, and dated and audit
documentation includes an approved audit program.




                                             1
Management Comments: AFAA Acting Director of Operations concurred with the
recommendation and stated that the AFAA Representative for Special Programs will
follow AFAA instructions relating to audit supervision and ensure all working papers and
AFAA audit review records are reviewed and initialed. Also, the AFAA Representative
will verify project files include an approved audit program during supervisory reviews.

Reviewer Response: Management comments are responsive.




                                           2
Appendix B. Scope and Methodology
We limited our review to the adequacy of AFAA SAP audits’ compliance with quality
policies, procedures, and standards. We judgmentally selected two SAP audits from a
universe of eleven SAP audit reports issued by AFAA SAP auditors during FY 2009 and
FY 2010. We tested each audit for compliance with the AFAA system of quality control.
The Army Audit Agency conducted a review of the AFAA internal quality control
system for non-SAP audits and/or attestation engagements and will issue a separate
report. The Deputy Inspector General for Policy and Oversight will issue an overall
opinion report on the AFAA internal quality control system that will include the
combined results of the SAP and non-SAP audit reviews.

In performing our review, we considered the requirements of quality control standards
contained in the 2007 Revision of GAGAS issued by the Comptroller General of the
United States. GAGAS 3.56 states:

           The audit organization should obtain an external peer review sufficient
           in scope to provide a reasonable basis for determining whether the audit
           organization is complying with its quality control system in order to
           provide the audit organization with reasonable assurance of conforming
           with applicable professional standards.

We conducted this review in accordance with standards and guidelines established in the
March 2009 Council of the Inspectors Generals on Integrity and Efficiency “Guide for
Conducting External Peer Reviews of Audit Organizations of the Federal Offices of
Inspector General,” and the Quality Standards for Inspection and Evaluation. The Army
Audit Agency used this guide in review of non-SAP audits at the AFAA. We reviewed
audit documentation, interviewed AFAA auditors, and reviewed AFAA internal audit
policies. We reviewed the DoD OIG Report No. D-2008-6-007, “Quality Control
Review of the Air Force Audit Agency’s Special Access Program Audits” dated
August 15, 2008. We performed this review from April to June 2011 at two AFAA
offices.

We used the following criteria to select the audits under review:

       x    Worked backward starting with the FY 2010 audits in order to review the
            most current quality assurance procedure in place.

       x    Avoided audits with multiple SAPs associated with the audit for ease of
            access.

       x    Avoided audits that have the same or similar titles to ensure review of
            multiple types of projects.




                                             3
Limitations of Review. Our review would not necessarily disclose all weaknesses in the
system of quality control or all instances of noncompliance with it because we based our
review on selective tests. There are inherent limitations in considering the potential
effectiveness of any quality control system. In performing most control procedures,
departures can result from misunderstanding of instructions, mistakes of judgment,
carelessness, or other human factors. Projecting any evaluation of a quality control
system into the future is subject to the risk that one or more procedures may become
inadequate because conditions may change or the degree of compliance with procedures
may deteriorate.




                                           4
Appendix C. Air Force Audit Agency Comments




                      5
6
